              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




      Washington Network Distribution
          Center – Postal Vehicle
            Service Operations


                      Audit Report




                                             March 21, 2013

Report Number NO-AR-13-001
                                                                          March 21, 2013

                                             Washington Network Distribution Center –
                                                    Postal Vehicle Service Operations

                                                          Report Number NO-AR-13-001



BACKGROUND:
The U.S. Postal Service transportation         necessary. We estimate the Postal
network comprised of Postal Service            Service could reduce 3,492 workhours
vehicles and employees is called the           and save about $271,000 annually if
Postal Vehicle Service. Postal Vehicle         standards are met. We also determined
Service operations at network                  the Postal Service was not always
distribution centers include drivers using     conducting required annual reviews and
tractors to move trailers in or around a       was paying for unneeded trips. We
facility yard. Processing operations           estimate the Postal Service could
require timely unloading of mail from          eliminate or modify 60 highway contract
trailers as they arrive and timely loading     trips for a savings of about $2.1 million
of mail into trailers for immediate            annually. Finally, we observed Postal
departure to avoid unnecessary moves.          Vehicle Service drivers not wearing
                                               safety belts and some facility doors not
Our objectives were to assess trailer          operating properly or being kept open.
loading practices and determine
whether staffing of Postal Vehicle             WHAT THE OIG RECOMMENDED:
Service driver operations was efficient,       We recommended the vice president,
effective, and economical. This report         Capital Metro Area Operations, ensure
focuses on the Washington Network              that Washington Network Distribution
Distribution Center, which has 12 Postal       Center managers follow prescribed
Vehicle Service drivers who move about         standard operating procedures for
1,611 trailers per week.                       loading mail into trailers; periodically
                                               assess driver workload and staffing to
WHAT THE OIG FOUND:                            ensure compliance with trailer move
Washington Network Distribution Center         standards; and eliminate 3,492 annual
staff effectively unloaded mail from           workhours. We also recommended
trailers as they arrived but did not           management follow prescribed
always follow policy to effectively load       procedures for making highway contract
trailers for immediate movement from           routes efficient and verify eliminating or
the facility, resulting in unnecessary         modifying 60 trips identified during our
trailer yard moves. We also found              audit; and emphasize and enforce that
drivers performed an average of 27             drivers wear safety belts, repair exterior
trailer moves daily rather than the            doors’ badge readers and locks, and
standard 40 because management did             ensure that exterior doors are not left
not fully assess workload and staffing         open.
requirements. As a result, more driver
workhours were expended than                   Link to review the entire report
March 21, 2013

MEMORANDUM FOR:            DAVID C. FIELDS
                           VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS




                           for
FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Washington Network Distribution
                           Center – Postal Vehicle Service Operations
                           (Report Number NO-AR-13-001)

This report presents the results of our audit of the Washington Network Distribution
Center – Postal Vehicle Service Operations (Project Number 12XG008NL002).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.


Attachments

cc: David E. Williams, Jr.
    Mary T. Taylor
    Pamela S. Grooman
    Corporate Audit and Response Management
Washington Network Distribution Center – Postal                                                                    NO-AR-13-001
 Vehicle Service Operations




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Live Unloading/Loading Practices ................................................................................... 2

Postal Vehicle Service Yard Move Productivity ............................................................... 3

Inefficient Highway Contract Routes ............................................................................... 3

Safety and Security Concerns ......................................................................................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A. Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Detailed Analysis of Live Loading Practices.............................................. 11

Appendix C: Detailed Analysis of Tractor Trailer Operator Work Load ......................... 13

Appendix D: Detailed Analysis of Cost Reductions ...........................................................

   for Highway Contract Routes ..................................................................................... 14

Appendix E: Detailed Analysis of Safety and Security Concerns .................................. 17

Appendix F: Monetary Impacts ...................................................................................... 18

Appendix G: Management's Comments ........................................................................ 19
Washington Network Distribution Center – Postal                                          NO-AR-13-001
 Vehicle Service Operations



Introduction

This report focuses on Washington Network Distribution Center (NDC) Postal Vehicle
Service (PVS) driver operations and related trailer loading (and unloading) practices
(Project Number 12XG008NL002). The objectives of our audit were to assess loading
practices at selected NDCs and determine whether staffing of PVS transportation
operations was efficient, effective, and economical. This self-initiated audit addresses
operational risk. See Appendix A for additional information about this audit.

U.S. Postal Service network transportation using Postal Service vehicles and
employees is referred to as PVS. Because PVS operations are local, they are managed
at the facility level under guidance from district, area, and headquarters transportation
officials. PVS activities at NDCs include yard operations, which is the movement of
trailers and equipment in or around a facility yard (spotting), typically to and from the
facility dock doors. PVS drivers move trailers using spotter trucks1 (see Figure 1).

                             Figure 1. Spotter Trucks at Washington NDC




                                     Source: U.S. Postal Service Office of Inspector
                                     General (OIG), August 16, 2012.

NDCs are tasked with ‘live unloading’ and ‘live loading’ of all arriving and departing mail
transportation trailers. Live unloading is when the highway contract route (HCR) or PVS
driver brings a trailer directly to a dock door for unloading when it enters the facility, and
live loading is when the HCR or PVS driver takes a loaded trailer directly from the dock
door and out of the facility yard. In either case, the trailer is not placed (or spotted) in the
yard for movement at a later time. Not spotting trailers in the yard ensures that mail
flows to the next operation or facility without delay and reduces total operating expenses



1
    Spotters are heavy duty trucks used to move trailers within an NDC yard operation.
                                                             1
Washington Network Distribution Center – Postal                                                       NO-AR-13-001
 Vehicle Service Operations


at the same time.2 The Washington NDC has 12 PVS drivers responsible for an
average of 1,611 trailer moves per week, servicing 144 dock doors.

Conclusion

Washington NDC officials could more effectively manage trailer loading practices,
increase staffing efficiency for PVS spotter truck operations, and reduce unnecessary
driver workhours. We found that management did not consistently follow the ‘live
loading’ policy for outbound trailers when possible. Specifically, PVS drivers were
spotting some trailers in the yard for subsequent movement from the facility instead of
moving trailers directly from the dock door and out of the facility yard.

For the remaining necessary trailer moves, managers did not require PVS drivers to
adhere to the productivity standards of 40 trailer moves in the yard per day. We found
that drivers performed an average of 27 trailer moves per day. As a result, the
Washington NDC expended more driver workhours than necessary. We estimate the
Postal Service could reduce driver workhours by 3,492 and save about $271,000
annually if standards were met.

During our review, we also determined the Postal Service was not effectively managing
some HCR transportation to and from the Washington NDC and was paying for
unneeded trips. We estimate the Postal Service could eliminate or modify 60 highway
contract trips for a savings of about $2.1 million annually. Finally, we observed some
PVS drivers were not wearing safety belts while driving in the Washington NDC yard
and that some doors to the facility were not operating properly or were inappropriately
kept open at times.

Live Unloading/Loading Practices

As required, the Washington NDC staff was effectively unloading inbound mail from
trailers as they arrived at the facility yard. However, staff was not always loading trailers
for immediate movement from the dock doors and out of the facility yard. Instead, in
some instances, PVS drivers moved trailers back to the yard; therefore, the Washington
NDC was conducting more spotter moves than necessary. This occurred because
management was not always enforcing Postal Service policy where possible for
dispatching vehicles. The policy requires that all dispatches be ‘live loaded.’

In our analysis, we noted some constraints at the facility that reduced opportunities for
live loading. Specifically, management could not always adhere to the live load
requirement because of limited dock space for staging mail for the live loading process.
The space was limited because of the equipment needed to perform other processing
operations at the facility. However, despite the space constraints, we concluded the




2
    Standard Operating Procedures Live Loading and Unloading of Trailers at Network Distribution Centers.


                                                           2
Washington Network Distribution Center – Postal                                                        NO-AR-13-001
 Vehicle Service Operations


Washington NDC could have live loaded about 22 percent more trips over a 1-month
period than it did.3 See Appendix B for our detailed analysis of this topic.

Postal Vehicle Service Yard Move Productivity

We found that Washington NDC management could make operations more efficient by
holding PVS drivers to a standard of 40 moves4 per workday for each driver according
to established productivity standards. The productivity standards were established in
2005 through the Postal Service’s Breakthrough Productivity Initiative,5 which
established productivity standards for NDC PVS operations. The standards specify that
drivers (tractor-trailer operators) are expected to complete 40 trailer moves within an
8 -hour period. This equates to one driver accomplishing 200 trailer moves in an NDC
yard during a 40-workhour week.6

We found that Washington NDC PVS drivers averaged 27 trailer moves per workday.
Furthermore, we conducted observations and analyzed operational workload data 7 and
confirmed that the established productivity standards of 40 moves per day were
reasonable and attainable for PVS drivers at the Washington NDC. We found that
productivity standards were not met because Washington NDC managers did not fully
assess workload and staffing requirements. If productivity was set at the standard of
40 moves per day, the Capital Metro Area could phase out about 3,492 annual
workhours and save about $271,000 See Appendix C for our detailed analysis of this
topic.

Inefficient Highway Contract Routes

During our review, we also found that some HCR trips to and from the Washington NDC
were not efficient and that 60 trips could be consolidated and/or eliminated due to low
mail volume. This occurred because management was not always conducting required
schedule and vehicle utilization reviews8 in order to adjust trips to account for the lower
volumes. By making these changes, the Washington NDC could save more than $2.1
million annually. We also determined the Postal Service could change these trips
without negatively affecting on-time service. During the course of our audit, the Capital
Metro Area initiated the modification or elimination of 24 trips of the 60 trips identified in
our audit. See Appendix D for our detailed analysis of this topic.


3
  No monetary savings will be claimed regarding live loading. The 22 percent of trips that could have been live loaded
over 1 month is less than one employee’s workload; however, management should consider the reduced moves in
future workload and staffing analyses and reduce workhours as necessary.
4
  A move consists of moving trailers and equipment from one location to another in the NDC yard.
5
  The breakthrough productivity initiative was initiated to drive costs out of the Postal Service while creating
continuous improvement capability.
6
  Headquarters and senior area transportation managers have explained that this productivity standard was
reasonable and appropriate.
7
  Our analysis also included PVS driver workload associated with the Surface Transfer Center (STC), which is
located in the NDC facility and is supported by the drivers.
8
  Handbook PO-701, Fleet Management, Chapter 23, dated March 1991, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain efficiency.


                                                          3
Washington Network Distribution Center – Postal                                                           NO-AR-13-001
 Vehicle Service Operations



Safety and Security Concerns

During our fieldwork, we observed that some PVS drivers were not wearing safety belts
while driving in the Washington NDC yard as required and we shared this information
with management during our review. This occurred because management was not
always enforcing required policy. Postal Service policy states that “Drivers must wear
safety belts whenever the vehicle is in motion.” Therefore, management needs to
consistently reinforce Postal Service policy on safety belt use. See Appendix E for our
detailed analysis of this topic.

We also observed that some of the exterior doors to the Washington NDC were left
open by shoring straps9 or other means and that other doors were accessible without
the use of a security badge or key. We determined this occurred because management
did not follow Postal Service policy requiring that doors must not be disabled or propped
open. See Appendix E for our detailed analysis of this topic.

Recommendations

We recommend the vice president, Capital Metro Area Operations, require that
Washington Network Distribution Center management:

1. Follow prescribed Postal Service standard operating procedures to the extent
   possible for live loading mail into trailers for immediate movement from the facility
   yard and consider the reduction of moves in future workload and staffing analyses.

2. Periodically assess Postal Vehicle Service truck driver workload and staffing
   requirements with respect to productivity standards to maintain appropriate staffing
   levels.

3. Eliminate 3,492 annual workhours associated with improving Postal Vehicle Service
   truck driver productivity to the Breakthrough Productivity Initiative standard of
   40 moves per day, or 200 moves per week.

4. Ensure managers within the Capital Metro Area follow prescribed highway contract
   procedures for making highway contracts efficient, including the continual monitoring
   and adjustment of trips based on need.

5. Verify the elimination or modification of 24 trips from highway contracts initiated by
   management during our audit for a savings of about $800,000 annually.

6. Eliminate or modify 36 trips from highway contracts identified during our audit for a
   savings of about $1.3 million annually.



9
    Shoring straps, also called restraining straps, are used to secure containers of mail in a trailer.


                                                               4
Washington Network Distribution Center – Postal                                NO-AR-13-001
 Vehicle Service Operations



7. Continually re-emphasizes the safety policy that drivers must wear safety belts
   whenever their vehicles are in motion and provide management oversight for
   enforcement.

8. Ensure Postal Service management repair exterior doors that have broken locks and
   security badge readers that do not operate and hold safety talks with all employees
   to highlight that security policy states exterior doors are not to be propped open with
   any devises to bypass security.

Management’s Comments

Management generally agreed with our overall findings and recommendations 1, 2, 4, 5,
7 and 8. Management partially disagreed with recommendations 3 and 6.

Regarding recommendation 1, management stated that they already increased live
loading for three daily trips and are altering door assignments that will allow for
additional live loading improvements going forward. In response to recommendations 2
and 4, management stated that they recently filled the transportation manager position
that was vacant, and the new manager is currently reviewing and adjusting PVS
schedules as necessary to ensure they are properly reviewed and efficient. In addition,
the plant manager will provide oversight to ensure that at least annual audits are
conducted and that opportunities to capture workhour savings are realized going
forward.

With respect to recommendation 3, management agreed with the finding but was not in
full agreement with the recommendation. Management stated that one position has
been reverted for a savings of 2,000 hours out of the 3,492 recommended in the report,
but the additional workload gained from the Area Mail Processing study of the Suburban
Processing and Distribution Center Annex will require additional workhours at the
facility. Management estimated that with the additional workload and 2,000 workhours,
they have achieved a savings of 4,000 hours to date.

In response to recommendation 5, management stated that they have adjusted the
routes as identified during the audit for an estimated savings of $1.8 million.

Regarding recommendation 6, management did not fully agree with the
recommendation stating that they could not eliminate all trips that the OIG
recommended. Management stated while there are savings to be realized, it would not
be cost effective to eliminate a round trip and replace it with a one-way trip, even though
the data suggest otherwise. Management provided examples of these situations.
However, in their response, management provided some alternate trips for elimination
other than the ones recommended. Management stated they have eliminated a total of
49 trips to date.




                                                  5
Washington Network Distribution Center – Postal                             NO-AR-13-001
 Vehicle Service Operations


In response to recommendation 7, management stated that they issued a safety talk to
drivers on the requirement of wearing safety belts and will conduct on the spot
inspections to ensure compliance by drivers. Finally, in response to recommendation 8,
management stated that the Inspection Service and the Facility Service Office are
addressing the doors and entry systems issues. Management sent a letter to all
employees regarding the security concerns and have posted signs to enforce policy.
See Appendix G for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The OIG
acknowledges management’s comments regarding recommendations 3 and 6.
Regarding recommendation 3, once the additional workload is finalized, management
will have a better assessment as to how many additional moves will be needed. At that
point, they can provide documentation, and the OIG will consider that information in
closing the significant recommendation. Likewise, regarding recommendation 6, after all
49 service changes are finalized, management can provide the OIG with documentation
of all service change requests. The information will be analyzed to determine what
savings were achieved compared to what was recommended. If other trips were
substituted for the ones the OIG recommended, those will also be considered in our
analysis.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                  6
Washington Network Distribution Center – Postal                                                          NO-AR-13-001
 Vehicle Service Operations



                                  Appendix A. Additional Information

Background

PVS Operations. Postal Service network transportation that uses Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles and
personnel to Postal Service network facilities, such as NDCs or processing and
distribution centers (P&DC) in or near metropolitan areas. PVS operations typically
include yard operations in which spotter trucks move or ‘spot’ trailers and equipment in
or around a facility yard, typically an NDC yard (see Figure 2). PVS is capital-and
personnel-intensive. Nationwide, PVS capital assets include about 1,943 cargo vans,
2,166 tractors (including spotter tractors), and 3,826 trailers. The Postal Service has
about 6,600 PVS drivers. The American Postal Workers Union represents PVS drivers
and support personnel.

The Washington NDC has 12 drivers responsible for an average of 1,611 trailer moves
per week. These drivers service 144 dock doors at the Washington NDC and this
includes moves for the STC, which is in the same facility.

          Figure 2. Spotter Truck Moving Trailer in the Washington NDC Yard




                           Source: OIG photo taken August 15, 2012.

Live Loading and Unloading Process. An essential component of the NDC network is
the live unloading of trailers as they arrive at the facility and the live loading of trailers
for direct movement from the facility yard.10 This process avoids unnecessary
movement and placement (spotting) of trailers in the yard and reduces overall
transportation time and handling costs. Outgoing mail received at Tier 1 NDCs from

10
  Service Talk #2 Live Loading and Unloading of Trailers at Network Distribution Centers – service talk used to
communicate information on the conversion of bulk mail centers into NDCs to NDC employees. It explains that an
essential component of this new NDC network is the live loading and unloading of trailers as they arrive at the facility
and identifies specific roles and responsibilities.


                                                           7
Washington Network Distribution Center – Postal                                                            NO-AR-13-001
 Vehicle Service Operations



local processing facilities is containerized separately and must be unloaded and
transferred to the Tier 2 NDC in time to be processed and dispatched into the network. 11
This requires the live unloading of originating trailers and the live loading of trailers for
the Tier 2 NDCs. Queuing and staging trailers for unloading at a later time may result in
delays and service failures.

Objectives, Scope, and Methodology

The objectives of our audit were to assess loading practices at selected NDCs and
determine whether staffing of PVS transportation operations was efficient, effective, and
economical. During our work, we interviewed Postal Service officials at headquarters
and the Washington NDC. We reviewed relevant Postal Service policies and
procedures, interviewed managers and employees, and observed and photographed
operations.

We extracted reports from the Yard Management System (YMS)12 that detailed all
outbound dispatches at the Washington NDC for a 4-week period. We analyzed this
data to determine whether the facility had further opportunity to live load its outbound
dispatches. We based this analysis on the Postal Service's Standard Operating
Procedures Live Loading and Unloading of Trailers at Network Distribution Centers
policy. We also obtained computer-generated data from the Vehicle Tracking Analysis
and Performance System (VTAPS)13 and YMS for a consecutive 35-week period from
November 1, 2011 through June 30, 2012 showing the PVS yard operational workload
(moves) for Washington NDC operations at the facility. We identified 43,618 yard moves
during the period under study. Because the YMS data did not include yard moves
performed for the STC, which is in the Washington NDC facility and is supported by the
Washington NDC drivers, we incorporated manual records obtained from the
Washington NDC transportation manager. The manual records started on August 16,
2012 and continued for 8 weeks. For the period reviewed, we combined the moves
performed for the Washington NDC and the STC. We examined this workload with
previously established Postal Service productivity standards of 40 moves per day for
PVS spotter driver operations.

While conducting observations of loading and unloading practices at the Washington
NDC, we observed multiple HCR trips with less than full trailer loads of mail departing
for the same destinations. We extracted reports from the Transportation Contract
Support System (TCSS)14 that detailed highway contract activity for the Washington
NDC. We analyzed this data to determine the number of trips that went to each
11
   Tier 1 sites distribute local and destination Standard Mail, Periodicals, and Package Services for the Tier 1 service
area. Tier 2 sites include Tier 1 responsibilities and the distribution of outgoing Standard Mail, Periodicals, and
Package Services for assigned Tier 1 sites.
12
   An automated system that tracks vehicles through a facility yard.
13
   VTAPS manages vehicle operations by providing real-time actionable information, effective vehicle tracking and
control utilities, and flexible access to data required to evaluate and improve vehicle operations. Interface will provide
times schedule, drop ship, and times data for use in VTAPS.
14
   TCSS is used to manage transportation contracts and related activities by allowing contracting officials to solicit,
award, and administer transportation contracts.


                                                            8
Washington Network Distribution Center – Postal                                                         NO-AR-13-001
 Vehicle Service Operations


destination. We also extracted historical volume reports from the Transportation
Information Management System (TIMES)15 to obtain trailer utilization (mail volume)
data for the Washington NDC’s inbound and outbound HCRs. We totaled mail volumes
for all trips to each destination and compared it to the number of trips going to each
destination. If a destination had more trips than were needed based on mail volume, we
recommended that trips to that destination be modified or eliminated.

We assessed the reliability of YMS and VTAPS data and validated data from YMS as
they pertained to spotter moves in the yard at the Washington NDC. We observed
spotters moving trailers within the yard and compared those to the YMS spotter move
report for the same period. We concluded the data were accurate and reliable. We also
verified the accuracy of the data through discussions with Postal Service officials
knowledgeable about the data and the system that produced the data. We determined
that the data were sufficiently reliable for the purposes of this report.

We conducted this performance audit from July 2012 through February 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on February 4, 2013, and included
their comments where appropriate.




15
  TIMES allows the dock clerk to collect data about the arrival and departure of mail truck transportation and to
communicate that information to other Postal Service processing facilities.


                                                           9
Washington Network Distribution Center – Postal                                    NO-AR-13-001
 Vehicle Service Operations


Prior Audit Coverage


                                                         Final
                                        Report          Report       Monetary Impact
            Report Title               Number             Date
    St. Louis Network                NL-AR-12-008      9/21/2012          $598,948
    Distribution Center –
    Postal Vehicle Service
    Operations
    Report Results:
    The OIG identified 6,984 unnecessary workhours and had an agreement from the St.
    Louis NDC to phase out the workhours. NDC managers need to periodically assess
    PVS workload and staffing requirements to maintain appropriate staffing levels. In
    addition, management should re-emphasize the safety policy on the use of safety belts
    while a vehicle is in motion. Management generally agreed with our findings and
    recommendations.

    Atlanta Network                  NL-AR-12-007      7/24/2012          $694,105
    Distribution Center –
    Postal Vehicle Service
    Operations

    Report Results:
    The OIG identified 8,714 unnecessary workhours. Management should eliminate 6,968
    workhours, and NDC managers need to periodically assess PVS workload and staffing
    requirements. Also, management should eliminate an additional 1,746 workhours by
    following prescribed standard operating procedures for movement of trailers in the yard
    to maintain appropriate staffing levels. Management generally agreed with our findings
    and recommendations.

    Postal Vehicle Service           NL-AR-10-007      8/4/2010          $2,791,349
    Transportation Routes –
    Washington Network
    Distribution Center

    Report Results:
    The OIG identified 6,968 unnecessary workhours and had agreement from the
    Washington NDC to phase out the workhours. In addition, NDC managers need to
    periodically assess PVS workload and staffing requirements to maintain appropriate
    staffing levels. Management agreed with our findings and recommendations.




                                                  10
Washington Network Distribution Center – Postal                                                            NO-AR-13-001
 Vehicle Service Operations



                   Appendix B: Detailed Analysis of Live Loading Practices

We observed and analyzed the Washington NDC’s ability to perform required live
unload and load procedures. We determined that management was live unloading
according to policy; however, management was not always live loading according to
policy. We found that although management could not fully perform the live load
requirements because of other processing operations at the facility,16 it did have an
opportunity to live load an additional 22 percent of the trailers as shown in Table 1.

Specifically, after conducting our observations at the Washington NDC, we determined
that because of the layout of the facility and space needed to process other mail, the
only dock doors that could accommodate 'live loading' were dock doors 127 through
144. To analyze loading activity, we extracted a historical outbound trip report from YMS
that detailed all of the outbound dispatches being made by the facility for a 4-week
period to determine whether trips could be live loaded given time constraints. We also
obtained the spotter activity archive report for the same period from YMS. Using these
reports, we compiled a trips list and sorted by dock door to determine when trailers were
departing from a specific door and the new location of the trailers. If there was more
than 1 hour between trips leaving from the same door, we determined the trips were
candidates for live loading. We then considered other factors, including the percentage
of load on each trip, dock space for staging mail for subsequent trips, and location of
move.




16
   The Washington NDC is a hybrid Tier 1 facility because it processes trayed mail, which is generally processed by
Tier 2 facilities. Tier 1 sites process designating mail and originating turn-around mail for the Tier 1 service area. All
mail for destinations outside of the Tier 1 service area are sent to Tier 2 sites for processing and dispatch. Tier 2 sites
process their own inbound and outbound mail plus all of the outgoing mail from Tier 1 sites. Tier 2 sites may perform
                                                                                         ™
single piece distribution of letters and flats and containerize and dispatch First-Class and Priority Mail. Tier 3 sites
are the gateway for consolidating mail from the Tier 2 sites when the Tier 2 sites are not able to send out full
truckloads to the network.




                                                            11
Washington Network Distribution Center – Postal                                                NO-AR-13-001
 Vehicle Service Operations



            Table 1. Washington NDC Outbound Trip (Live Load) Analysis


                                                     Total         Trips that Could Be
                            Date                     Trips             Live Loaded
                         8/25/2012                    14                     6
                         8/26/2012                     5                     1
                         8/27/2012                    16                     2
                         8/28/2012                    19                     4
                         8/29/2012                    18                     6
                         8/30/2012                    19                     4
                         8/31/2012                    17                     5
                         9/1/2012                     13                     1
                         9/2/2012                      5                     0
                         9/3/2012                     11                     3
                         9/4/2012                     15                     5
                         9/5/2012                     17                     4
                         9/6/2012                     17                     5
                         9/7/2012                     17                     3
                         9/8/2012                     13                     1
                         9/9/2012                      5                     1
                         9/10/2012                    17                     4
                         9/11/2012                    15                     1
                         9/12/2012                    18                     3
                         9/13/2012                    17                     5
                         9/14/2012                    16                     2
                         9/15/2012                    13                     2
                         9/16/2012                     5                     0
                         9/17/2012                    17                     5
                         9/18/2012                    18                     3
                         9/19/2012                    16                     2
                         9/20/2012                    18                     5
                         9/21/2012                    17                     8
              Total Outbound Trips                    408                    N/A
              Total Potential Live Loads
              Identified in 4 Weeks                   N/A                     91
              Percentage of Trips with
              Potential to be Live Loaded             N/A                    22%
             Source: Postal Service, YMS Outbound Trip Status Reports, as of September 21, 2012.




                                                    12
Washington Network Distribution Center – Postal                                                NO-AR-13-001
 Vehicle Service Operations



        Appendix C: Detailed Analysis of Tractor Trailer Operator Work Load

The Washington NDC has 12 PVS drivers over three tours who are responsible for
moving trailers around the Washington NDC yard. The work includes movement of
trailers for operations of the NDC, as well as, operations associated with the STC, which
is at in the same facility.

We reviewed all yard moves associated with the NDC operations in a 7-month period
from November 1, 2011 to June 30, 2012. We examined 43,618 yard moves over 174
days. We also reviewed yard moves tracked manually for the STC for an 8-week period
from August 16 to October 15, 2012. We determined that each driver moved an average
of 27 moves per day or 134 moves per week. The national standard for yard moves is
40 moves per day or 200 moves per week (see Table 2).

                          Table 2. Average Moves Per Driver Per Day


                                                                           Average            Average
                                                                          Moves Per          Moves Per
                            Average Weekly                                Driver Per         Driver Per
        Facility                Moves                     Drivers           Week                Day

   Washington NDC                  1,611                    12                134                 27
Source: Postal Service, VTAPS, YMS, and manual reports from the Washington NDC, as of October 15, 2012.




                                                     13
Washington Network Distribution Center – Postal                                                      NO-AR-13-001
 Vehicle Service Operations


                      Appendix D: Detailed Analysis of Cost Reductions
                               for Highway Contract Routes

While observing loading and unloading practices at the Washington NDC, we noted
multiple HCR trips with less than full trailer loads of mail departing for the same
destinations. We reviewed reports that detailed highway contract activity for the
Washington NDC to determine the number of trips that went to each destination. We
also extracted historical volume reports to obtain trailer utilization (mail volume) data for
the Washington NDC’s inbound and outbound HCRs. We totaled the mail volumes for
all trips to each destination and compared the total to the number of trips going to each
destination. We found that HCR trips to and from the Washington NDC were not
efficient and that some trips could be consolidated or eliminated without negatively
impacting on-time service due to low volume. If a destination had more trips than were
needed based on the mail volume, we recommended trips to that destination be
modified or eliminated. See Table 3 for the inbound trip analysis and Table 4 for the
outbound trip analysis.

                        Table 3. Washington NDC Inbound Trip Analysis

                                                                   Total
                                                     Total       Inbound
                                      Total        Average         Trips          Number
                                    Number          Volume        Needed             of
                                       of             of         Based on        Inbound          HCRs with
                                    Inbound        Inbound       Average          Trips to         Trips to
               Facility               Trips         Trips17       Volume         Eliminate         Facility
     Baltimore International
     Mail Facility (IMF), MD                  6        264%                 4               2              20291
     Baltimore P&DC, MD                       9        670%                 8               1              20291
     Charlottesville Main Post
     Office (MPO), VA                         3        158%                 3               0             230M2
     Dulles P&DC, VA                          6        407%                 5               1             20111
     Eastern Shore
     Processing & Distribution
     Facility (P&DF), MD                      5        253%                 4               1            21892
     Greensboro NDC, NC                      21       1718%                18               3     208L5, 27416
     Norfolk P&DC, VA                         5        295%                 4               1            23390
                                                                                                 220U0, 23390
     Northern VA P&DC, VA                    10        689%                 8               2    20111, 226JV
                                                                                                 23090, 32212,
     Richmond P&DC, VA                       12        714%                 8               4            23891
     Suburban P&DC, MD                        9        313%                 4               5    202U1, 207TE
     Total                                   86                            66           2019               NA
Source: OIG, TCSS, and TIMES, as of November 27, 2012.

17
   The total average volume of inbound trips was calculated by combining the average volumes for all trips from each
facility arriving at the Washington NDC. For example, one facility may have three trips going to the Washington NDC
all with the average volume of 70 percent. The total average volume in this example would be 210 percent.


                                                         14
 Washington Network Distribution Center – Postal                                                     NO-AR-13-001
  Vehicle Service Operations



                       Table 4. Washington NDC Outbound Trip Analysis

                                                                 Total
                                                               Outbound
                                                 Total           Trips
                                Total          Average          Needed         Number of
                              Number of       Volume of        Based on        Outbound           HCRs with
                              Outbound        Outbound          Average         Trips to            Trips to
        Facility                Trips           Trips18         Volume         Eliminate            Facility
 Baltimore IMF, MD                    8             507%                6                2                20291
                                                                                                  208L5, 20291,
 Baltimore P&DC, MD                     12           920%                 10                2             21892
 Charlottesville MPO,
 VA                                      3            84%                  2                1            230M2
 Dulles P&DC, VA                        10           802%                  9                1      20111, 208L5
 Eastern Shore P&DF,
 MD                                       7      Unknown         Unknown                    0            21892
                                                                                                  27418, 50319,
                                                                                                  75116, 15118,
                                                                                                  274Y1, 27416,
 Greensboro NDC, NC                     14          1072%                 12                2            32212
 Norfolk P&DC, VA                        7           371%                  5                2            23390
 Northern VA P&DC,
 VA                                     15          1155%                 13                2     208L5, 220U0
                                                                                                  23090, 32212,
 Richmond P&DC, VA                      16           910%                 10                6      23390, 23891
 Suburban P&DC, MD                       5           442%                  5                0     202U1, 208L5
 Total                                  97                                72            1819               N/A
Source: OIG, TCSS, and TIMES, as of November 27, 2012.

 We also noted that during our audit, the Capital Metro Area modified or eliminated 24
 trips to and from the Washington NDC. These changes led to a reduction of more than
 500,000 miles a year and an annual savings of more than $800,000 (see Table 5).




 18
    The total average volume of outbound trips was calculated by combining the average volumes for all trips leaving
 the Washington NDC destined for the same facility. For example, three trips may leave the Washington NDC going to
 the same facility all with the average volume of 70 percent. The total average volume in this example would be 210
 percent
 19
    There are 38 trips recommended for elimination here because HCR schedule 208L5 trips 24 and 30 have an
 inbound trip from Greensboro and an outbound trip to Northern VA that were counted separately in this chart because
 this analysis is based on facility trips and not trip number. When referring to the number of trips recommended for
 elimination elsewhere in the report, trips 24 and 30 were counted once each reducing the number to 36.


                                                         15
Washington Network Distribution Center – Postal                                                          NO-AR-13-001
 Vehicle Service Operations



                              Table 5. Postal Service-Initiated Changes

                                    Number                    Annual
                           Contract of Trips                 Mileage            Annual
                           Number Modified20                 Reduced            Savings
                             20636           5                  -49,673          -$89,268
                             217Y1           2                   48,314            80,291
                             23090           3                 255,056            386,883
                             23390           5                   87,802           169,242
                             27416           3                   83,224           139,398
                             274Y1           6                   78,958           131,427
                              Total        24                  503,681           $817,973
                          Note: We included only trips with at least one stop at the Washington
                          NDC in this analysis.
                          Source: OIG, TCSS, and the Postal Service, as of December 13, 2012.




20
  In this analysis, any trip that was added, eliminated, or had a change in mileage, frequency, or facility stops was
considered to be modified.


                                                           16
Washington Network Distribution Center – Postal                                           NO-AR-13-001
 Vehicle Service Operations



           Appendix E: Detailed Analysis of Safety and Security Concerns

Safety Belt Usage

On August 15, 2012, we observed PVS drivers in the Washington NDC yard to
determine whether they were wearing safety belts as required. Of the four PVS drivers
observed, none were wearing safety belts. We shared this information with
management during our review. Postal Service policy states that “Drivers must wear
safety belts whenever the vehicle is in motion.” Therefore, management needs to
consistently reinforce Postal Service policy on safety belt use.

Plant Security Review

During the week of August 14, 2012, we opened some Washington NDC exterior doors
without a security badge. We notified management of the issue and stated that we
would check the doors during our next facility visit. We returned to the Washington NDC
on September 11, 2012, and determined that Washington NDC management did not
correct the deficiency noted in our earlier visit. In fact, we were able to gain access to 12
of the 14 exterior doors without using a security badge or key due to broken door locks,
security badge readers not working properly, and employees using shoring straps
(ordinarily used to secure a load of equipment in a truck) to prop doors open. See
Figure 3 for examples of shoring straps either draped over a badge reader to keep the
door propped open or propping open a door to the facility.


      Figure 3. Doors Propped Open with Shoring Straps at Washington NDC




   Source: OIG photograph, September 11, 2012.    Source: OIG photograph, September 11, 2012.




                                                  17
Washington Network Distribution Center – Postal                                                    NO-AR-13-001
 Vehicle Service Operations



                                   Appendix F: Monetary Impacts

We concluded that Washington NDC management could phase out 3,492 workhours by
following established productivity standards. This would save the Postal Service
$271,075 annually ($542,150 over 2 years). The Postal Service initiated the
modification or elimination of 24 HCRs trips during our audit saving the Postal Service
$817,973 annually ($1,635,946 over 2 years). We also concluded that the Washington
NDC could modify or eliminate an additional 36 HCR trips based on the volume of mail
and frequency of trips. These changes would save the Postal Service $1,294,547
annually ($2,589,094 over 2 years). The total HCR savings would be $2,112,520
annually ($4,225,040 over 2 years). See Table 6.

                   Table 6. Potential Savings – Funds Put to Better Use21

          Recommendation                           Impact Category                         Amount
                   2                  Funds Put to Better Use                             $542,150
                   5                  Funds Put to Better Use                            1,635,94622
                   6                  Funds Put to Better Use                            2,589,09423
                 Total                                                                  $4,767,190
       Source: OIG, as of December 13, 2012.




21
   Impact Category: Funds that could be used more efficiently by implementing recommended actions.
22
   Estimated savings are based on the annual rate of existing contracts and are negotiated between the Postal
Service and their suppliers.
23
   To be fiscally conservative, the OIG used HCR trips with the smallest service frequency when calculating the
monetary savings. Estimated savings are based on the annual rate of existing contracts and are negotiated between
the Postal Service and their suppliers.


                                                       18
Washington Network Distribution Center – Postal                NO-AR-13-001
 Vehicle Service Operations


                           Appendix G: Management's Comments




                                                  19
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  20
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  21
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  22
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  23
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  24
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  25
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  26
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  27
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  28
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  29
Washington Network Distribution Center – Postal        NO-AR-13-001
 Vehicle Service Operations




                                                  30
